                                         National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General




Date:           SEP 2 8 2007
To:            Mary F. Santonastasso, Director
                ivision of Institution and Award Support
                         SV.   t5AA.h-
From:          Deborah H. Cureton
               Associate Inspector General for Audit

Subject:       Audit Report No. OIG-07-1-020
               University of Maryland Baltimore County


Attached is the final report prepared by Mayer Hoffman McCann P.C., an independent public'
accounting firm, on the audit of NSF Award Nos. EHR-0514420, HRD-0000295, and 11s-0121570
awarded to the University of Maryland Baltimore County (UMBC). The audit covered NSF-funded
costs claimed from November 1,2000 to March 3 1,2006 aggregating to approximately $9.4 million
of NSF direct funded costs and approximately $5.6 million of cost sharing.

Overall, the auditors determined that the costs claimed by UMBC appear fairly stated and are
allowable, allocable, and reasonable for the three NSF awards, although there were questioned costs
in the amount of $174,655 of the $9.4 million in costs claimed to NSF. However, the auditors noted
four compliance and internal control deficiencies in LMBC's financial management practice, one of
which is material, and three that are considered significant. Although presently these deficiencies
did not result in egregious findings, the auditors believe that these deficiencies could have a
significant impact on UMBC's ability to efficiently and effectively administer funds in a manner
that is consistent with NSF and other federal laws and regulations, f left uncorrected.

Specifically, UMBC personnel did not always follow the cost accounting procedures in place to
ensure that the costs charged to NSF awards were accurate, allowable and allocable. The auditors
found this to be a material weakness. LMBC's cost accounting procedures required the
establishment of separate accounts to capture costs incurred for each NSF award; the performance
of monthly analysis of award expenditures to ensure that costs claimed to a particular NSF award
were reasonable and allowable; and, a Peoplesoft time certification and personnel activity reporting
system to capture labor effort reporting. The inconsistent use of cost accounting procedures
resulted in inaccurate labor, fringe, and participant support costs being charged to NSF award
numbers EHR-05 14220 and HRD-0000295 in the amount of $413 11. Likewise, the inconsistent
use of cost accounting procedures resulted in $3 16,692 of erroneous labor, fmge, participant
support and indirect charges to NSF awards. Of this amount, UMBC overcharged $287,738 and
undercharged $28,954. The $316,692 of errors was corrected by UMBC on its March 31, 2006
FCTR and was not questioned by the auditors. However, $41,511 of improper charges and $5,798
of associated indirect costs had not been corrected by UMBC as of March 31, 2006, the end date of
this audit. As such, the auditors questioned a total of $47,309.

Likewise, UMBC did not always monitor, in accordance with its established procedures, the
subaward costs it charged to its NSF awards. As a result of this internal control deficiency, UMBC
could not ensure the accuracy or validity of the subaward costs charged to its NSF awards. The
auditors performed additional testing at two subawardee sites. Although the auditors only
questioned $1,634 of indirect costs claimed by a subawardee under NSF award number HRD-
0000295, UMBC's lack of subawardee monitoring could cause future noncompliance issues and
unallowable costs to be charged to NSF awards, if left uncorrected.

Additionally, UMBC did not have adequate procedures to monitor the cost sharing expenditures
claimed by its subawardees. Although UMBC's subaward agreements require its subawardees to
document their cost sharing, UMBC never enforced this requirement and never requested cost
sharing data or cost sharing supporting documentation from its subawardees. UMBC claimed
subawardee cost sharing for approximately $2.4 million (44% of the total cost share it claimed) in
expenditures for NSF award number HRD-0000295 based solely on the cost sharing budgets of its
subawardees. As a result of this internal control weakness, UMBC could not be certain that the
cost sharing amounts it claimed to NSF for its subawardees was in fact correct. Because LMBC did
not monitor cost sharing expenditures claimed by its subawardees, the auditors were required to
perform on-site audit procedures at both subawardee locations to affirm that cost sharing claimed
was allowable, allocable and sufficiently supported. Although the auditors were able to satisfy
themselves that the cost sharing UMBC reported to NSF for award number HRD-0000295 was
verifiable, UMBC lacked the controls in its cost sharing procedures to adequately monitor
subawardee cost sharing. Thereby, errors on cost sharing submitted by other current or future
subcontractors could go undetected. UMBC is responsible for monitoring the cost share amounts
claimed by its NSF grant subawardees pursuant to its grant agreement with NSF.


Finally, UMBC did not have adequate procedures in place to detect errors in the amount of indirect
costs it claimed to NSF. UMBC relied on its accounting system to automatically calculate and
record the amount of indirect costs to charge to its NSF awards. As a result, UMBC overstated its
indirect costs to NSF in the amount of $125,584 for NSF award number EHR-0514420 and $5,926
for NSF award number 11s-0121579 for a total overcharge of $13 1,500 of indirect costs, which is
1.4 % of the total $9.3 million claimed on all three awards under audit. Mischarges of a similar
nature could occur in the future if this internal control deficiency is left uncorrected.

To address these compliance and internal control deficiencies, we recommend that your office
direct UMBC to (1) develop a comprehensive subawardee fiscal monitoring plan which includes
clearly defined monitoring responsibilities, staff its OSP and OCGA departments appropriately, and
adhere to its subaward monitoring policies and procedures; (2) develop and implement written
policies and procedures to obtain and review cost sharing data and related supporting
documentation from its subawardees on a regular basis; (3) develop and implement written policies
and procedures to perform periodic reviews of individual departments and divisions for compliance
with and proper implementation of established cost control processes in a timely manner; and
provide necessary assistance and training to individual departments or divisions which have
difficulties in following the established controls and, (4) develop and implement adequate
procedures to review indirect costs charged to NSF awards for allowability and allocability,
including procedures for recalculation of indirect costs to ensure that the amount charged to each
NSF award is accurate and allowable.

The awardee responded that it concurred with all the report findings. UMBC officials indicated that
they were in the process of (1) developing a comprehensive subawardee fiscal monitoring plan, (2)
developing and implementing written policies and procedures to obtain and review cost sharing data
and related supporting documentation from subawardees, (3) developing and providing training to
departments for grant reconciliation, including procedures to review and recalculate indirect costs,
and (4) reorganizing its Office of Sponsored Programs and Office of Contract and Grant accounting.

Please coordinate with our office during the resolution period to develop a mutually agreeable
resolution of the audit findings. The findings should not be closed until NSF determines that all
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented.

We are providing a copy of this memorandum to the Division Directors of EHRIHRD and
CISE/IIS. The responsibility for audit resolution rests with the Division of Institution and Award
Support, Cost Analysis and Audit Resolution Branch (CAAR). Accordingly, we ask that no action
be taken concerning the report's findings without first consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards,the Office of Inspector General:

       Reviewed Mayer Hoffman McCann's approach and planning of the audit;

       Evaluated the qualifications and independence of the auditors;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with Mayer H o f h a n McCann and NSF officials, as necessary,
       to discuss audit progress, findings, and recommendations;

       Reviewed the audit report, prepared by Mayer Hoffman McCann to ensure compliance with
       Government Auditing Standards and the NSF Audit Guide; and

       Coordinated issuance of the audit report.

Mayer Hoffman McCann is responsible for the attached auditor's report on University of Maryland
Baltimore County and the conclusions expressed in the report. We do not express any opinion on
the Schedules of Award Costs, internal control, or conclusions on compliance with laws and
regulations.
We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact me at 703-292-4985 or Jannifer Jenkins at
703-292-4996.


Attachment


cc: Victor Santiago, Division Director, EHRIHRD
    A. James Hicks, Program Director, EHRIHRD 

    Haym Hirsh, Division Director, CISEIIIS 

UNIVERSITY OF MARYLAND, BALTIMORE COUNTY
  1000 tiILLTOP CIRCLE, BALTIMORE, MD 21 250 


NATIONAL SCIENCE FOUNDATION AWARD NUMBERS 

                EHR-0514420 

                HRD-0000295 

                 119-0121570 



 FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND 

       INDEPENDENT AUDITORS' REPORT 

      NOVEMBER 1,2000 TO MARCH 31, 2006 





                            MAYER HOFFMAN McCANN P.C.
                            Conrad Government Services Division
                            Certified Public Accountants
                            2301 Dupont Drive, Suite 200 

                            Irvine, California 9261 2 

                                                      UNIVERSITY OF MARYLAND. BALTIMORE COUNTY


                                                                                               TABLE OF CONTENTS



Executive Summary: 

  Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

  Audit Objectives, Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

  Summary of Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

  Exit Conference . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 


Compliance and Internal Controls:
  Independent Auditors' Report on Compliance and Other Matters and on Internal
    Control over Financial Reporting Based on an Audit Performed in Accordance
    with Governmerlt Audit117gStandards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                       



Financial Schedules and Supplemental Information: 

   Independent Auditors' Report on Financiai Schedules . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

   Schedule A - I .Schedule of Award Costs (Award N o . EHR-0514420) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

   Schedule A-2 .  Schedule of Award Costs (Award No . HRD-0000295) ............. .                                                                                                 .      .................... 

   Schedule A-3 - Schedule of Award Costs (Award N o . IIS-0121570) ........................................... 

   Schedule B - Schedule of Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

   Schedule C - Summary Schedules of Awards Audited and Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

   Notes to Financial Schedules . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 


Appendix                     . Awardee's                         Comments to Report
I   EXECUTIVE SUMMARY   7 

BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to University of Maryland,
Baltimore County (UMBC) under award numbers EHR-0514420, HRD-0000295, and IIS-
0121570 for the period November 1, 2000 to March 31, 2006. UMBC, as a Federal awardee, is
required to follow the cost principles specified in Office of Management and Budget (OMB)
C~rcular A-21, Cosl PI-inciples for Educational Ir~stilutions, and the Federal administrative
requirements contained in OM6 Circular A-1 10, Urtiform Ad~ninistrative Requirements for
Grants and Agreements with I~isfitutionsof Higher Education, Hospitals, and Other Non-Profit
01-ga~~izatiolis

University of Maryland, Baltimore County (UMBC), established in 1966, is a college within the
University System of Maryland. It is a public research university, integrating teaching, research
and service to benefit the citizens of Maryland. 'The campus offers academically talented
students a strong undergraduate liberal arts foundation that prepares them for graduate and
professional study, entry into the workforce, and community service and leadership. UMBC
emphasizes science, engineering, information technology, human services and public policy at
the graduate level UMBC contributes to the economic development of the state and the region
through entrepreneurial initiatives, workforce training, K-16 partnerships, and technology
commercialization in collaboration with public agencies and the corporate community.

Descriptions of the NSF awards we audited are as follows:

A w a r d EHR-0514420 - UMBC-BCPS STEM (STEM) Project. NSF awarded EHR-0514420 to
UNIBC for the period January 1, 2005 to December 31, 2008 in the amount of $3,173,579. This
award replaces award number EHR-0227256 and facilitates the implementation, testing,
refinement, and dissemination of promising practices for improving STEM student achievement
as well as teacher qualitylretention in selected high-needs elementary, middle, and high schools
In the Balt~nioreCounty Public Schools (BCPS) system. The project plans to create evaluat~on
perforniance based pre-service teacher education (interns) programs and sustainable
professional development programs for teachers and administrators. UMBC and BCPS will
establish a Center for Excellence in STEM Education for faculty and BCPS staff to develop
projects to serve the BCPS Cumulative disbursements for award number EHR-0514420
reported to NSF through March 31, 2006 were $2,025,940.

A w a r d HRD-0000295 - University System of Maryland Louis Stokes Alliance for Minority
Participation (USM LSAMP). NSF awarded HRD-0000295 to UMBC for the period November
1, 2000 to March 31, 2006 in the amount of $8,617,624, with a cost sharing requirement of
$5,882,672. The USM LSAMP i s a comprehensive program designed to increase the quantity
and quality of minority students receiving baccalaureate degrees in science, mathematics,
engineering, and technology (SMET). The primary goal of USM LSAMP is to produce
approximately 3,627 minority SNlET baccalaureate recipients from the 2000-2001 through the
2004-2005 academic years. The secondary goals of the program are to increase the number of
minority students entering SMET graduate programs and to increase the number of minority
students entering SMET careers, especially faculty positions. Under this award, UNIBC also
provides funds to University of Maryland Eastern Shore and University of Maryland College
Park and 18 pilblic community colleges in Maryland for minority participation at those
campuses. Cu~nulative disbursements for award number HRD-0000295 reported to NSF
through March 31, 2006 were $6,781,311. Cost share claimed totaled $5,559,109.
Award 115-0121570- ITRIPE: Universal Access f o r Situationally Induced Impairments:
Modeling,'Prototyping, and Evaluation (ISS). NSF awarded ISS-0121570 to UMBC for the
period September 15, 2001 to March 31, 2006 in the amount of $1,083,020. The goal of this
project is to address the issues involved in developing effective computer systems for
individuals experiencing situationally-induced impairments (SII). Such impairments exist when
the physical, cognitive, or perceptual demands placed on the computer users exceed their
abilities. Sll are temporary, resulling from the environment in which the work is being performed
or the tasks in which the user is engaged. The program will develop new techniques for
identify~ngand documenting the factors that contribute to SII, identify methods for developing
solutions that address the temporary and dynamic nature of SII, and compare the interaction
strategies of individuals experiencing SII to those of individuals with comparable disability-
induced impairments (DII). Cumulative disbursements for award number 11s-0121570 reported
to NSF through March 31, 2006 were $561,262.


AUDIT
... .... ... .
,           ,
               OBJECTIVES,
                 ... . ........ . ....
                     , ,          ,      ,,
                                             SCOPE & METHODOLOGY
                                       . . .. ............. -. .. ...... .. ............ .... . .......... .............. .. .... .. . ... ..-.
                                                                    ,   ,                   ,                                                 ......--..... - .... . . .....-.... . ........-.
                                                                                                                                                           ,    ,     ,   ,,                 ..-.- ...-
                                                                                                                                                                                                 -,       -,   ......... .. .. ...,



The objectives of our audit were to:

        1. 	 Determine if UMGC's Schedules of Award Costs (Schedules A - I through A-3) present
             fairly, in all materia'l respects, costs claimed on the Federal Cash Transactions Reports
             (FCTR) - Federal Share of Net Disbursements, and the cost claimed, including cost
             sharing, are in conformity with Federal and NSF award terms and conditions.

        2        Identify matters concerning instances of noncompliance with laws, regulations, and the
                 provisions of the award agreements pertaining to NSF awards, and weaknesses in
                 UMBC's internal control over financial reporting that could have a direct and material
                 effect on the Schedules of Award Costs and UMBC's ability to properly administer,
                 account for, and monitor its NSF awards.

W e conducted our audit in accordance with auditing standards generally accepted in the United
States of America, G o v ~ / ~ IAudifil~gStandards
                                  J / ~ ~ ~ J ~      (2003 Revision) issued by the Comptroller
General of the United States, and the Natiof~alScience Foundation Audit Guide (September
1996), as applicable. These standards and the NSF Audit Guide require that w e plan and
pelform the audit to obtain reasonable assurance about whether amounts claimed to NSF as
presented in the Schedules of Award Costs (Schedules A - I through A-3) are free of material
misstatenienls. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs. An audit also includes assessing the
accounting principles used and the significant estimates made by UMBC, as well as evaluating
the overall financial schedule presentation. We believe that our audit provides a reasonable
basis for our opinion.


    SUMMARY OF AUDIT RESULTS

    A n audit was performed on the costs claimed on the financial reports submitted to NSF by
    UMBC on NSF award numbers EHR-0514420, HRD-0000295 and IIS-0121570, as well as cost
    sharing provided on INSF award number HRD-0000295. 'These costs and the costs questioned
as a result of our audit are shown in the Schedules of Award Costs (Schedules A - I through A-3)
and are summarized as follows.

  NSF Award No.      .   Award Budget                      Claimed C o s t s             Questioned Costs


 EHR - 0514420       $                     3,173,579                       2,025,940                           136,125




       Total          $   .,,::   ,.,:=   12.8.4.,..23   ,..-:.    .,..-yL%3:L8J5J._3.                         J..ZZk6$!j
                                                                                         r:2z.7=~~=,=~~.r.~,yL:.




   C o s t Sharing        Award Budget                        Claimed Costs              Questioned Costs 


 HRD - 0000295        $                    5,882,672     -.                5,559,109 


       Total          $.;.;,1,
           .3-@-2 9-12
                                                 !       .        ..   .   =    Q        ..=_r...~:_._=.7z=__.:.7:   -
                                                                                                                     ;
                                                                                                                     :
                                                                                                                     .
                                                                                                                     ? :




Except for the $174,655 (1.86% of 9.37 million in total claimed costs) in questioned salaries and
wages. fringe benefits, participant support costs, subaward costs and indirect costs described
below, we determine that the costs claimed by UWIBC appear fairly stated and are allowable,
allocable and reasonable for all three NSF awards.

Spec~flcally,under NSF award number EHR-0514420, we questioned $8,861 of salaries and
wages and $1,680 of related fringe benefits for a total of $10,541 because adjustments were
made to labor effort reports at UMBC which reduced the labor costs originally charged to the
NSF grant on its IMarch 31, 2006 FCTR. We also questioned $125,584 of indirect costs
because t h ~ samount of indirect costs was calculated using certain direct costs which were
erroneously charged to the NSF grant, later reversed from UMBC's accounting records through
a correct~ngjournal entry, but nonetheless still remained as a claimed cost charged to the NSF
y rant

We also questioned $30,970 of participant support under NSF award number HRD-0000295
because these costs were related to another NSF award and not to the NSF award to which
they were charged. In addition, one of IJMBC's subawardees used an incorrect indirect cost
rate to compcrte ~ndirect costs and the $1,634 of incorrectljl calculated indirect costs were
passed or1 to NSF through the subaward cost category claimed by UMBC. We questioned a
total of $32,604 of costs for HRD-0000295.

Finally, the $5.926 of indirect costs questioned under NSF award number 11s-0121570 resulted
frorri UMBC ni~sclass~fyingsubaward costs as supplies in its accounting system. The
misclassification of these costs caused the over-charging of indirect costs.
We noted four compliance and internal control deficiencies in LIMBC's financial management
practice, of which one is material, that contributed to these questioned costs. Additionally, these
deflcrencles could have a significant impact on UMBC's ability to efficiently and effectively
administer funds In a manner that is consistent with NSF and other Federal laws and regulations
if left uncorrected. Specifically.

   a	    UMBC did no1 always monitor, in accordance with its established procedures, the
         subaward costs it charged to its NSF awards. Except for the subawardee under NSF
         award number EHR-0514420, all four of the subawardees under award numbers HRD-
         0000295 and llS-0121570 did not submit any form of documentation to support the costs
         claimed on the invoices submitted to UMBC for reimbursement. Additionally, UMBC did
         not perform any period~cmonitoring of its subawardees to ensure that the expenditures
         incurred and claimed by its subawardees were accurate, valid, allowable and adequately
         d o c ~ ~ m e n t e dThe
                              .   two subawardees under NSF award number HRD-000295 claimed
         approxin~ately$2.65 million or 39% of the total costs charged to the award. The other
         two subawardees under NSF award n u m b e r llS-0121570 claimed approximately
         $219,000 or 39% of the total costs charged to the award. As a result of this internal
         control deficiency, we were required to perform additional on-site procedures at LIMBC's
         subawardees to satisfy ourselves that the subawardee costs charged to the NSF grant
         were allowable. We questioned $1,634 of indirect costs claimed under NSF award
         number HRD-0000295 because one of the subawardees did not use the latest effective
         indirect cost rate to calculate the.indirect costs it claimed to UMBC.

   e	    UMBC did not have adequate procedures to monito; the cost sharing expenditures
         cla~med by its subawardees. Although UIVIBC's subaward agreements require its
         subawardees to document their cost sharing, UMBC never enforced this requirement
         and never requested cost sharing data or cost sharing supporting documentation from its
         subawardees. UMBC claimed subawardee cost sharing for approximately $2.4 million
         (44% of the total cost share it claimed) in expenditures for NSF award number HRD-
         0000295 based solely on the cost sharing budgets of its subawardees. Because it did
         not monitor the cost sharing expenditures claimed by its subawardees, UMBC could not
         confirm the validity of the subawardee cost sharing it claimed to NSF As a result of
         UMBC's lack of subawardee cost share procedures, we were required to conduct on-site
         a u d ~ t procedures at UMBC's subawardee locations to affirm that the cost sharing
         claimed by UMBC to NSF was allowable and allocable. W e did not question any cost
         sharing.

    s	   Despite having cost accounting controls in place, UMBC did not always follow these
         controls to ensure that the costs it charged to its NSF awards were accurate, allowable
         and allocable.      In particular, UMBC's cost accounting controls included the
         establishment of a revolving account string to provide separate accounts to capture
         costs incurred for each NSF award; the performance of monthly analysis of award
         expenditures to ensure [hat costs claimed to a particular NSF award were reasonable
         and allowable; and, a PeopleSoft time certification and personnel activity reporting
         system to capture time effort reporting. UMBC failed to consistently use and follow these
         controls, either due to error, personnel changes, or a lack of familiarity with the
         PeopleSoft system. 'The inconsistent use of cost controls resulted in inaccurate labor,
         fringe, and participant support costs being charged to NSF award numbers EHR-
         0514220 and HRD-0000295 in the amount of $41,511. Likewise, the inconsistent use
         of cost controls also resulted in $316,692 of errors in the amount of labor, fringe,
         participant support and indirect costs LIMBC charged to its NSF awards. Of this amount,
       UMBC overcharged NSF $287,738 for such costs, while also undercharging NSF
       $28,954 of costs. The $316!692 of errors was corrected by UMBC on its March 31,
       2006 FCTR. The $41,511 of inaccurately charged costs and $5,798 of associated
       indirect costs had not been corrected by UMBC as of March 31. 2006, the end date of
       this audit. As such, we questioned a total of $47,309.

       UMBC did not have adequate procedures in place to detect errors in the amount of
       indirect costs it claimed to NSF in a timely manner. UMBC relied on its accounting
       system to automatically calculate and record the amount of indirect costs it charged to its
       NSF awards. Although the University has procedures which requires its business
       managers and principle investigators to conduct monthly expenditure reviews and
       analyses to ensure that costs claimed to NSF awards are allowable and altocable, these
       procedures do not include ensuring that indirect costs charged to the NSF awards are
       accurate. As a result, UMBC overstated its indirect costs to NSF in the amount of
       $125.584 for WSF award number EHR-0514420 and $5,926 for NSF award number IIS-
       01 2 1579 for a total overcharge of $1 31,500 of indirect costs, which is 1.4 O/O of the total
       $9.3 million claimed on all three awards under audit

UMBC's failure to address these compliance and internal control deficiencies could result in
similar problems on other current NSF awards as well as on future awards that NSF grants to
UMBC.

To address these conlpliance and Internal control deficiencies, we recommend that the Director
of NSF's Division of Institutional and Award Support (DIAS) direct UMBC to (1) develop a
coniprehensive subawardee fiscal monitoring plan which includes clearly defined monitoring
responsibilities, appropriately staff its OSP and OCGA departments, and adhere to its subaward
monitor~ngpolicies and procedures; (2) develop and implement written policies and procedures
to obtain and review cost sharing data and related supporting documentation from its
subawardees on a regular basis; (3) develop and implement written policies and procedures to
perform periodic reviews of individual departments and divisions for compliance with and proper
implementation of established cost control processes in a timely manner; and provide necessary
assistance and training to individual departments or divisions which have difficulties in following
the established controls and, (4) develop and implement adequate procedures to review
indirect costs charged to NSF awards for allowability and allocability, including procedures for
recalculation of indirect costs to ensure that the amount charged to each NSF award is accurate
and allowable.


The awardee responded to the draft report on September 20, 2007. In its response, the
awardee stated that it concurred with the findings that it lacked adequate fiscal monitoring of
subawardees, that it lacked adequate procedures over subawardee cost sharing claimed to
NSF awards, that the cost accounting controls in place were not used and followed effectively,
and that there were inadequate procedures to detect errors in indirect costs i n a timely manner.
The awardee indicated that it -was in the process of (1) developing a comprehensive
subawardee fiscal lnonitoring plan, (2) developing and implementing written policies and
procedures to obtain and review cost sharing data and related supporting documentation from
subawardees, (3) developing and providing training to departments for grant reconciliation,
including procedures to review and recalculate indirect costs, and (4) reorganizing its Office of
Spolisored Progralns and Office of Contract and Grant accounting.
    The findings in this report should not be closed until NSF has determined that all the
    recommendations have been adequately addressed and the proposed corrective actions have
    been satisfactorily implemented. UNIBC's response has been included in its entirety in
    Appendix A.

     For a complete d~scussionof audlt findings, refer to the Independent Auditors' Report on
     Cornpliar,ce and Other Matters and on Internal Control Over Financial Reporting.



      EXIT CONFERENCE

.........   -..   ......................-.....................                                                                                                      --

     We conducted an exit conference on February 22. 2007 via phone. W e discussed preliminary
     find~nysand reco~nnlendationsnoted during the audit. Representing UMBC were:

             . . . . . .        - -, ...........       - ..-.. - .   - ................                      - . .-.........         -................        - . -..........       -- .---.- ..... - ... -........

              . . . . . . . . . . . - -
                                       Name                      - . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Title
                                                                                                                                                                  ........                     - ........ -..................... 





       Representing Mayer Hoffman McCann P.C. - Conrad Government Services Division were:
                              ............         - ..................        - ..............................                      -..  --....................                -......... 

               ............
                                        Name                                              ......... 

                                                                                                                                  Title
COMPLIANCE AND INTERNAL CONTROLS 

               Mayer Hoffman McCann PC.
               An Independent CPA Firm 

               Conrad Government Services Division 

               2 3 0 1 Duponl Drive, Suite 2 0 0 

               Irvine, California 92612
               94.9-474-2020 ph




National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


     INDEPENDENT AUDITORS' REPORT ON CONIPLIANCE AND OTHER MATTERS 

           AND ON INTERNAL CONTROL OVER FINANCIAL REPORTING 

            BASED ON AN AUDIT PERFORIVIED IN ACCORDANCE WlTH 

                    GOVERNMENT AUDITING STANDARDS

We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A - I
through 'A-3), which summarize financial reports submitted by the University of Maryland,
Baltimore County (LIMBC) to the National' Science Foundation (NSF) and claimed cost sharing
for the awards and periods listed below and have issued our report thereon dated August 4,
2006.
                                                                        -
            Award
             --.- .Number
                   -.-- --.     -.                   Award Period'          Audit Period

           EHR - 0514420                         01/01/05 - 12/31/08    01/01/05 - 03/31/06
           HRD - 0000295                         11/01/00 - 10/31/06    11I01100 - 03/31I06
            llS - 0121570                        09115/01 - 08/31 I06   0911510 1 - 0313 1I06


We conducted our audit of the Schedules of Award Costs as presented in Schedules A-I
through A-3 in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States (2003 revision), and the
N a t / o ~ ~Science
             al      Foundation Audit Guide (September 1996), as applicable. These standards
and the National Science Foundation Audit Guide require that we plan and perform the audit to
obtain reasonable assurance that the financial schedules are free of material misstatement.


COMPI-IANCE WlTH LAWS AND REGULATIONS AND OTHER MATTERS

Compliance with applicable federal laws, regulations, and NSF award terms and conditions is
the responsibility of UNIBC's manqgement. As part of obtaining reasonable assurance about
whether UMBC's financial schedules are free ofmaterial misstatement, we performed tests of
UMBC's compliance with certain provisions of applicable laws, regulations, and NSF award
terms and conditions, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. However, providing an opinion on compliance
with those provisions is not an objective of our audit and, accordingly, we do not express such
an opinion. The results of our tests of compliance disclosed instances of noncompliance that are
required to be reported under Govenlment Auditing Standards and the National Science
Founclatiol~Audit Guide and are described in Finding Nos. 1 and 2 below.
INTERNAL CONTROL OVER FINANCIAL REPORTING

UlVlBC management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments made by management are required to assess
expected 'benefits and related costs of internal control policies and procedures. The objectives
of ~nternalcontrol are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions
are executed in accordance with management's authorization and recorded properly to permit
the preparation of fin'ancial schedules in accordance with accounting principles prescribed by
NSF Because of inherent limitations in any internal control, misstatements due to errors or
fraud may nevertheless occur and not be detected. Also, projection of any evaluation of internal
control to future periods is subject to the risk that procedures may become inadequate because
of changes in conditions, or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

-In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 through
A-3) for the period November 1, 2000 to March 31, 2006, we considered UMBC's internal
control over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedules and not to provide an opinion on the internal
conirol over financial reporting. Accordingly, we do not express such an opinion.

\/Ve noted, however, certain matters described below involving the internal control over financial
reporting and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment. could adversely
affect UMBC's ability to record, process, summarize, and report financial data consistent with
management's assertions in the financial schedules. Reportable conditions we identified are
described in Finding Nos. 1 through 4, below.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control elements does not reduce, to a relatively low level, the risk that
misstaten~entscaused by error or fraud in amounts that would be material in relation to the
financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of
internal control over financial reporting would not necessarily disclose all matters related to
~nternalcontrol over financial reporting that might be reportable conditions and, accordingly,
would not necessarily disclose all reportable conditions that are also considered to be material
weaknesses We consider the reportable condition described in Finding No. 3 to be a material
weakness.
FINDINGS AND RECONIMENDATIONS

Finding 1. Lack o f Adequate Fiscal Monitoring of Subawardees

UWIUC did not always monitor, in accordance with its established procedures, the subaward
costs it charged to its NSF awards Except for the subawardee under NSF award number EHR-
0511120, all [our of the subawardees under award numbers HRD-0000295 and IIS-0121570 did
not silbniit any form of documentation to support the costs claimed on the invoices they
subrnitied to UMBC for reimbursement. Additionally, UMBC did not perform any periodic fiscal
monitoring of its subawardees to ensure that the expenditures incurred and claimed by its
subawardees were accurate, valid, allowable and adequately documented.            The two
subawardees under NSF award number HRD-000295 claimed approximately $2.65 million or
39% of the total costs charged to the award. The other two subawardees under NSF award
number llS-0121570 claimed approximately $219,000 or 39% of the total costs charged to the
award.

OMB Circular A-110: Administrative Requirements for Grants and Agreements with Institutions
of Higher Education, Hospitals, and Other INon-Profit Organizations, Subpart C, Section .51(a),
states: "Recipients are responsible for managing and monitoring each project, program.
subaward, function or activity supported by the award."

OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations!
Subpart D. Section 400(d.3) - Pass-Through Entity Responsibilities, states: "A pass-through
entity shall perform the following for the Federal awards it makes: . . . (3) Monitor the activities of
subrecipients as necessary to ensure that Federal awards are used for authorized purposes in
compliance with laws, regulations, and the provisions of contracts or grant agreements and that
performance goals are achieved."

UMBC requires its subawardees to submit invoices for reimbursement of expenses incurred for
NSF grants. These invoices are reviewed for budgetary compliance and are then approved by
the Principal Investigator or hislher designee for the particular NSF award. These invoices are
then processed through UMBC's accounting system as a vendor payment. Throughout this
process. UMBC has no procedures in place to ensure that the amounts claimed by its
subawardees on their invoices are accurate, allocable, allowable and sufficiently supported in
accordance with NSF and OMB Circular requirements. Thus, UMBC does not perform periodic
fiscal ~rionitoringof its subawardees..

As a result of this internal control deficiency, we were required to perform additional on-site
procedures at two of UMBC's subawardees t o satisfy ourselves that the subawardee costs
charged by UMBC to its NSF grants were accurate, allowable and allocable. As a result of our
additional on-site procedures, we questioned $1,634 of indirect costs claimed under NSF award
number HRD-0000295 because one subawardee did not use the latest effective indirect cost
rate to calculate the indirect costs it claimed to UMBC. Although we did not find any major
issues during .our on-s~tework, this fact does not obviate UMBC's responsibility to fiscally
rnonitor its subawardees.

I.JMHC personnel indicated that since three o f its subawardees were universities within the
same Maryland university system, it relied on the ONlB Circular A-133 Singe Audit of the
university system to ensure that the costs claimed by its NSF grant subawardees were
accurate, valid, allowable and adequately documented. However, because of the large dollar
thresholds on A-133 .Single Audits required for testing of a federal program, and the fact that
UMBC's NSF grant subaward recip~entswould not meet that threshold, the likelihood of the NSF
funds being tested under the A-133 was slight. Thus, UNIBC's reliance on the A-133 Single
Audit Report to fiscally monitor its NSF grant subawardees did not constitute adequate fiscal
monitoring of its subawardees.

UMBC's subawardee fiscal ~nonitoringwas also inadequate because the University's policies
and procedures regarding subawardee fiscal monitoring were not well established. Likewise,
responsibilities forsubawardee fiscal monitoring were not clearly delineated among UMBC's
responsible offices. According to UMBC's writien policies and procedures, responsibilities for
suhawardee fiscal mon~toringare shared among the Office of Sponsored Programs (OSP), the
Principal Investigator (PI) or-hislher designee of the award, and the Office of Contract and Grant
Accounting (OCGA).

The OSP is responsible for conducting site visits at suhawardee locations. These site visits
may ~ n c l ~ i dae revlew of compliance with financial and program records. The OCGA is
responsible for evaluating audit findings for completeness and for compliance with applicable
laws ar:d regulations, for issuing appropriate management directions to the subawardees, and, if
necessary, for conduciing reviews and assessments of subawardee cost documentation, such
as pay[-ol!reg~stersand indirect cost rates subawardees charge to UMBC programs. The PI or
hislher des~gneeof the award is responsible for reviewing and approving invoices received from
their subawardees to ensure that costs claimed are allocahle, allowable and reasonable.

Nonetheless, UMBC did not develop a comprehensive subawardee monitoring plan that
included specific procedures and timeframes with designations as to how often, which
procedures, and by whom such comprehensive subawardee fiscal monitoring should be
conducted. Based on our interview with UMBC personnel, it appears that the parties involved in
suhawardee fiscal monitoring were not clear as to each other's role in the subawardee
monitoring process. Also, UMBC's written policies and procedures did not specify how each
office at UMBC should collaborate with the other to effectively monitor UMBC's subawardees.
Addilionally, UMBC personnel advised us that staffing levels within the OSP and OCGA had not
grown incrementally to cope with the increasing volume of federal contract and grant awards
issued to UMBC. UNlBC has also experienced significant changes in personnel in the OSP.

IJMBC's lack of subawardee fiscal monitoring could lead to NSF funds being used for purposes
other than those intended under UMBC's NSF awards. ~ h u s lack  ,   of adequate subawardee
fiscal monitoring increases the risk that some of the subawardee costs claimed by UMBC may
Ibe unallowable, unreasonable or not allocable to the NSF awards.


Recommendation 7:

We reco~nmendthat NSF's Director of the Division of Institution and Award Support (DIAS)
ensure that UMBC develop a comprehensive subawardee fiscal monitoring plan which includes
clearly defined monitor~ngresponsibilities. In addition, UMBC should appropriately staff its OSP
and OCGA departments and adhere to its subaward monitoring policies and procedures.
Awardee's Comments

UMBC concurs with the finding and is in the process of developing a comprehensive
subawardee fiscal monitoring plan which includes clearly defined monitoring responsibilities.       '


Specifically, UMBC's Office of Sponsored Programs (OSP) -has implemented new procedures
for processing subaward invoices and verifying subaward cost sharing commitments. OSP has
also changed the language of the subawards to better address compliance requirements,
developed a new subrecipient commitment form and developed a database to assist in the
reporting arld monitoring of subawards. Subawardee invoices are now directed to OSP for
review againsl the subaward agreerrlerlt terms, including the approved budget and indirect cost
rate, p r ~ o rto approval by the Principal Investigator for payment. Additionally, subaward
agreement language has been improved to require adequate information to be included in the
subaward invoices. Fiscal monitoring or desk audits of subawardees will be handled using a
risk based approach and will be designed so as not to duplicate the efforts of the subawardee's
A-1 33 audit.

OSP has increased its staff size from three to nine positions. The staff has been organized into
teams to better serve the needs of the individual colleges and centers within UMBC and provide
a solid knowledge base of several major funding agencies and their relevant policies and
procedures. Additionally, one position is primarily dedicated to subrecipient monitoring. The
Office of Contract and Grant Accounting has also reorganized its staff to provide more focused
attention on the individual needs of UMBC's colleges and centers, as well as a compliance
review function


Auditor's Response

UIVIBC's comments are responsive to the recommendation and indicate that it is currently in the
process of developing the procedures as recommended. In some cases, UMBC indicated that
the procedures have already been implemented. However, this report finding should not be
closed irntil NSF determines that the proposed corrective actions have been satisfactorily
implemented.


ind ding 2. Lack of Adequate Procedures over Subawardee Cost Sharing Claimed to NSF
Awards


UMHC did not have adequate policies and procedures to monitor Ihe cost sharing expenditures
claimed by its subawardees. Although UMBC's subaward agreements require its subawardees
to docc~nienttheir cost sharing, UMBC never enforced this requirement and never requested
cost sharing data or cost sharing supporting documentation from its subawardees.

NSF's Grant Policy Manual (GPM) Section 333.6, Cost Sharing Records and Reports and OMB
Circular A-1 10, Subpart C, Section 23, require grantees to maintain records of all costs claimed
as cost sharing, and states that those records are subject to audit. These regulations also state
that cost-sharing expenses must be verifiable from the recipient's records, not be included as
contribut~onsto any other federal award, or funded by any other federal award. Circular A-110,
Section 23: also states that to be accepted as part of the recipient's cost sharing, the
expenditures must be necessary and reasonable for proper and efficient accomplishment of
project or program objectives and allowable under the applicable cost principles.
Although UMBC maintains adequate documentation for its own cost sharing expenditures, it did
not niainta~nand review adequate documentation to support cost sharing expenditures it
claimed for its subawardees for NSF award number HRD-0000295. This occurred even though
U M B C s sc~bawardeeagreements required its subawardees to maintain and submit supporting
documentation for costs claimed as cost share on NSF grants. Instead, according to our
inter-views with UMBC personnel, UMBC claimed subawardee cost sharing for approximately
$2.4 million (44% of total cost share claimed by UMBC) in expenditures for NSF award number
tiRD-0000295 based solely on the costsharing budgets of its subawardees. Moreover, the
subawardee's did not submit to UMBC their certifications of cost sharing expenditures or their
schedules of cost share by cost categories until February 2006, which was after UMBC had
already submitted its cost share certification to NSF for award number HRD-0000295.

Because UMBC did not monitor cost sharing expenditures claimed by its subawardees, we were
requirec' to pelform on-site audit procedures at both subawardee locations to affirm that cost
sharlng claimed was allowable, allocable and sufficiently supported. Although we were able to
sat~sfyourselves that the cost sharing UMBC reported to NSF for award number HRD-0000295
was verifiable, UMBC nonetheless still has responsibility to monitor the cost share amounts.
claimed by its NSF grant subawardees pursuant to its grant agreement with NSF.

According to lJMBC personnel, it overlooked the cost sharing requirements that it had in its
subaward agreements with its subawardees. However, we also reviewed UMBC:s written
procedures regarding the monitoring of subawardee cost sharing and noted that these
procedures did no1 include requirements for specific LlMBC personnel to obtain and review
supporting documentation of cost sharing expenditures from UMBC's subawardees.

As a result of its lack of adequate procedures related to the monitoring of subawardee cost
sharing claimed on NSF awards, UMBC is at risk of certifying cost sharing expenditures for its
NSF awards that may either not exist or may not be allowable per federal and NSF regulations.


Recommendation 2:

W e recommend that IUSF's Director of DlAS ensure that UMBC develops and implement written
policies and procedures to obtain and review cost sharing data and related supporting
documentation from its subawardee on a regular basis. These reviews should be of sufficient
scope and quality to allow UMBC to provide reasonable assurance that all costs claimed by
subawardees are accurate, allowable, and sufficiently supported per NSF regulations and OMB
Circulars.


Awardec's Comments

 UMBC concurs with the finding and is in the process of developing and.implementing written
 policies and procedures to obtain and review cost sharing data -and related supporting
 docurnentation from subawardees on a regular basis. UMBC's Office of Sponsored Program
 (OSP) has improved its subaward cost share verification procedures, including requiring all
 scrbawardee cost sharing to be documented on incoming invoices with a breakdown by expense
'category and acknowledgement of the subawardee funding source.. As previously stated, OSP
 staff has also been increased and now includes a position primarily dedicated to subrecipient
 monitoring. The subaward manager has developed a database of subawards with reporting
mechanisms to assist in the organizing and monitoring of subawards, including cost sharing
requirements and other compliance regulations. Additionally, an annual cost share certification
is required from an authorized organization official at the subaward institution. As part of
UMBC's comprehensive suhawardee fiscal monitoring plan, fiscal monitoring or desk audits of
subawardees will be handled using a risk based approach and will be designed so as not to
duplicate the efforts of the subawardee's A-I 33 audit.


Auditor's Response

UMBC's comments are responsive to the recommendation and indicate that it is currently in the
process of developing the procedures as. recorrimended This report finding should not be
closed until NSF determines that the proposed corrective actions have been satisfactorily
implemented.


Finding 3. Cost Accounting Controls in Place Not Used and Followed Effectively

UMGC personnel did not always follow established cost controls that were put in place to ensure
11.1at the costs charged to NSF awards were accurate, allowable and allocable. The inconsistent
use of cost controls resulted in inaccurate labor, fringe, and all other types of costs being
charged to NSF award numbers EHR-0514220 and HRD-0000295 in the amount of $41,511.

1-ikew~se.ihe inconsistent use of cost controls also resulted in $316,692 of errors in the amount
of labor. fringe, participant support and indirect costs UMBC charged to its NSF awards. Of this
amount: UMBC overcharged NSF $287,738 for such costs, while also undercharging NSF
$28,954 of costs. The $316,692 of errors was corrected by UMBC on its March 31, 2006 FCTR.
The $41,511 of inaccurately charged costs, and $5,798 of associated indirect costs had not
been corrected by UMBC as of March 31, 2006, the end date of this audit. As such, we
questioned a total of $47,309.

OMB Circular A-1 10, Uniform Administrative Requirements for Grants and Other Agreements
with Institution of Higlier Education, Hospitals, and Other Non-Profit ~ r ~ a n i z a t i ' o nSection
                                                                                                s,      21,
Sub-section 0 , states that a "recipients' financial management system shall provide for
accurale, current and complete disclosure of the financial results of each federally-sponsored
project" . . . and shall maintain "effective control over and accountability of all funds property and
other assets.. " .

UMBC's cost accounting controls included the establishment of a revolving account string to
provide separate accounts to capture costs incurred for each NSF award; the performance of
monthly analysis of award expenditures to ensure that costs claimed to a particular NSF award
were reasorlable and allowable; and, a PeopleSoft time certification and personnel activity
repoltiny system to capture time effort reporting. UMBC failed to consistently use and follow
these controls, either due to error, personnel changes, or a lack of familiarity with the
PeopleSoft system. The following is a description of the cost control deficiencies we noted
during our audit. We have grouped these deficiencies by award.
NSF Award Number EHR-0514.420 (STEM Grant)


A. Revolving Account Not Established Timely t o Separately Record Non-Reimbursable
Costs

LIMBC s cost controls ~ncludethe requirement that the accounting department establish a
 evolving account string" (e.g., a specific sequence of numbers identifying separate accoc~nts
for each NSF grant) in UMBC's accounting system to record non-reimbursable costs on federal
awards. The purpose of the revolving account is to ensure that unallowable costs are not
claimed to NSF as an award expense and that such unallowable costs are not reported on the
FCTRs that UMBC files with NSF.

In January 2005, the initial STEM grant Principal Investigator was not successful in obtaining a
fund~ngconi~nitmentfrom UMBC's accounting office at the beginning of the grant period, and as
a resull. a revolving account string was not established for the beginning months of this grant.
l'he establishment of this account was further delayed because the responsibilities of
adrrlin~sterirlythe STEM grant were tra'nsferred from one department to another department in
July 2005 The grant was originally managed by the Mechanical Engineering Department and
the D~visionof Professional Education and Training. Ultimately, STEM project was set up as ils
own department under the College of Engineering and Information Technology. From July 2005
throilgh September 2005, a new Business Manager was not assigned lo the grant. In October
2005. a new permanent Business Manager was hired, but soon thereafter left on maternity
leave

Since the revolving account was not established at the beginning of the grant, all costs
associated with the project, both allowable and 'unallowable, were charged. to the NSF award
and were claimed as costs by UMBC on the FCTRs it filed with NSF. In February 2006, the
B u s ~ ~ i e sManager
               s       returned from maternity leave and the appropriate account to capture
unallov~ablegrant costs was established in UMBC's accounting system. A total of $85,921 of
unailowable costs (from all cost categories) that had been charged to NSF award number EHR-
0511420 in UNIBC's accounting system were removed as charged from the NSF grant and
recorded to t h e newly established revolving account. LlMBC also removed these previously
claimed c~nallowablecosts by reducing its allowable costs on its March 31, 2006 FCTR by
$85,921. Nonetheless, the timely establishment of an account string would prevent UMBC from
charging unallowable costs to its NSF awards.


8.Monthly Review o f Expenditures Not Performed Timely

Although the STEM grant commenced on January 1, 2005, a monthly review of expend~tures
claimed on the grant was not performed c ~ n t ~February
                                                 l        2006 T h ~ soccurred because, as
~ndrcaledabove, the award adm~nlstrationwas in transition for several months and there was a
tlme lag In the establ~shmentof a permanent Business Manager to oversee the grant Once the
permanent Bus~nessManager returned from maternity leave, a review of expendltures cla~med
on the grant was performed Errors were found on the December 31, 2005 FCTR Adjustnients
to the FCTR were made on the March 31. 2006 FCTR

Spec~fically,labor costs of $26,500 for contractual faculty members that had already been paid
by UNIBC's tuition funds were also claimed by UWIBC on its NSF STEM grant. Thus, NSF grant
costs were overstated by $26,500 on UMBC's December 31, 2005 FCTR. This error was
corrected in UMBC's accounting system on February 23, 2006 through a journal entry. UMBC
removed these erroneously claimed costs by reducing its allowable costs on its March 31, 2006
FCTR by $26,500. A timely review of STEM award costs would have detected this error and
prevented the c~nallowablecosts from being claimed to NSF.


C. Inaccurate Labor Costs Claimed Due to Inefficient Use o f The Time Effort Allocation
Process

UNlBC crt~lizesthe time reporting functions of its PeopleSoft system to appropriately allocate
labor costs to its NSF awards. To utilize this system efficiently, certain forms must be
accuraiely colnpleted to document and certify an employee's level of labor effort for a specific
NSF grant. Systeni documents also require information related to the time period and the
fcrnding sourcti(s) for the particular level of labor effort.

For exaniple: a Human Resource (HR) form is used as a "front-end" control to establish the
level of labor effort of an employee for a specific award(s) or funding source(s). Within 60 days
aftel. the end of each semester, each employee is required to certify the level of time efforts
lielshe contributed to the NSF award(s) during the semester and whether or not the amount of
labor effort agrees to what was established on the HR form. If the certification of labor agrees
with the information established on the HR form, no corrections or adjustments are necessary
and the payroll systeni defaults to the labor'cost allocation established on the HR form. If an
employee's level of time efforts deviates from what was established on the HR form, a
Depar!ment Budget Earning (DBE) Labor Distribution form is completed to make the necessary
changes :o the labor allocation costs to be charged to the NSF award(s). A Retro Payroll
Transfer (RPT) form is used to correct erroneously charged labor cost distributions that were not
captured by the DBE form.

Because UMBC did not efficiently utilize the requiredlabor effort reporting forms, several errors
were made when claiming labor costs to IUSF on its FCTR. These errors resulted in the
understatement of labor costs as discussed below.

         Spring 2005 semester labor costs were understated by $650 for the PI. W e noted that
         the Pl's labor costs were first incorrectly charged to the Mechanical Engineering
         Department to which the STEM grant was awarded, instead of specifically to the STEM
         grant. A correction was made by using the PeopleSoft RPT form to charge labor costs
         to the STEM grant. -However, the incorrect time period for the labor costs was made on
         this form and the first pay period of the semester was erroneously omitted from the labor
         costs UMBC claimed on its FCTR. The error was subsequently corrected and reflected
         on the March 31, 2006 FCTR.

    c    Labor costs were understated by $14,300 for the STEM grant PI because the DBE Labor
         Distribution Form was completed with incorrect information. Thus, the PI'S labor costs
         were not charged to the STEM grant for a certain time period. We noted that the form
         erroneously specified time efforts distribution of the Pl's labor effort to the STEM grant
         through May 2005 only, rather than to the .end date of the grant. The error was
         subsequently corrected and reflected on the March 3.1, 2006 FCTR.

    r	   Labor costs were understated for the STEM PI by $14,004 because the HR form was
         prepared in error, which resulted in the P l ' s labor costs being incorrectly charged to
       another NSF grant, the Science and Technology grant. The error was subsequently
       col-rected and reflected on the March 31, 2006 FCTR.

Based on our interview with STEM grant personnel, the above errors occurred due to
inadequate familiarity with the Peoplesoft time reporting and labor distribution process.


D. Labor Distribution Adjustment Not Timely Reflected o n FCTR

We found [hat labor costs charged to the STEM grant were overstated by $10,541 on the March
31. 2006 FCTR because certifications and adjustments to UMBC's labor distribution for the Fall
2005 sen~esler happened after the FCTR had been prepared and submitted to NSF.
Adjustments were made after March 31, 2006 to reduce the level of labor effort of a faculty
member charged to the STEM grant for the period covered by the March 31, 2006 FCTR.
UMBC stated !ha! the discrepancy will be reflected on the next FCTR. Overstated labor, fringe
benefits and associated indirect costs on the March 31. 2006 FCTR were as follows:


                                             Costs Questioned
                Cost Category             On March 31, 2006 FCTR
          Salaries and Wages                        $    8,861
          Fr~ngeBenefits                                 1.680
                   Sub-total                            10,541
          Associated Indirect Costs                      5,798
                     Total                            2; ,..I a.3

Because UMBC personnel did not complete the appropriate adjustments to the labor effort
reporting system in a t~melymanner, the labor costs UMBC claimed on its March 31, 2006
FCTRs d ~ dnot accurately reflect the actual labor effort incurred for the grant. W e questioned
the $16,339 of salary and wages, fringe benefits and associated indirect costs.


NSF Award Number HRD-U000295 (LSAWIP Grant)

Untimely Establishment o f Appropriate Accounts Causes Unrelated Costs to Be Charged
t o NSF Award

Costs claimed or1 the FCTR for the LSAMP grant were overstated because costs related to
another NSF award were recorded and charged to the LSAMP award. $1 75,317 of salaries and
wages, fringe benefits and scholarship costs incurred under the new LSAMP phase Ill grant
were recorded to the older LSAMP phase II grant because a separate account string for the new
phase Ill grant expenditures had not been established in a timely manner. The Business
Manager first recorded these costs under the LSAMP phase II grant and then later removed
these costs to the phase Ill grant through journal entries once the phase Ill grant accounts were
established      W e noted that the Business Manager maintained separate records and
documentation for expenditures incurred for the new LSAMP phase Ill grant, and thus was able
to properly remove these costs frorn the old LSAMP grant. The adjustments reducing $175,317
of costs claimed to the incorrect NSF grant were reflected on the March 31, 2006 FCTR. We
did not qllestion these costs.
Similarly, we found that costs claimed on the FCTR for NSF award number HRD-0000295 were
overstated by $30,970 because participant support costs related to another NSF award were
recorded arid charged to this award. UMBC did not establish accounts to record costs for this
newly awarded IUSF grant in a timely manner. As a result, UMBC personnel charged the
participant support costs of this newly awarded NSF grant to NSF award number HRD-
0000295. UNlBC stated that the adjustments would be reflected on the next FCTR it would f ~ l e
with NSF. Because the period of time for this FCTR was after the period of our audit, we could
not confirm whether UMBC made this correction and thus, we questioned the $30,970.

UMBC personnel indicated that it appeared that the delay in establishing the appropriate
accounts for the new LSAMP phase Ill grant resulted from confusion between two UMBC
departments, the Office of Sponsored Programs (OSP) and the Office of Contract and Grant
Accounting (OCGA). The OCGA is responsible for setting up the information in UMBC's
accouni~ngsystem and the OSP is responsible for providing OCGA with the necessary award
information, i.e., award budget and cost sharing data.      Based on a review of the email
correspondence between OSP and OCGA, we found there were concerns as to the
conlpleteness arid accuracy of the award information needed to establish the appropriate
accounts. 'These concerns caused a delay in establishing the account strings.

Overall alihocrgh UlVlBC had processes in place to provide cost controls, i.e.. account strings for
recording allowable and unallowable costs on awards; processes to review charges made to
award accounts; and processes to ensure correct labor charges were recorded, these
processes were not adequately documented in writing. Similarly, cost controls existed to
conduct periodic reviews: however, these reviews were not performed to ensure that the
processes in place were followed.




We reconi~nendthat IVSF's Director of DlAS ensure that UMBC develop and implement written
policies ancl procedures to perform periodic reviews of individual departments and divisions for
corripliance with and proper implementation of established cost controls in a timely manner.
Necessary assistance and training should be provided to individual departments or divis~ons
which have difficulties In following the established control processes.


Awardee's Comments

UMBC concurs with the finding and is in the process of reorganizing both its Office of
Sponsored Programs (OSP) and Office of Contract and Grant Accounting (OCGA) to better
serve the needs of its individual colleges and centers. LlMBC also indicates that both OSP and
OCGA are implementing and documenting procedures focused on compliance reviews and
campus outreach. Training programs are also being developed for the campus community to
provide departments with the necessary tools to properly manage their awards.


Auditor's Res.ponse
--
UMBC's comments are responsive to the finding and recommendation. This report finding
should not be closed until NSF determines that the proposed corrective actions have been
satisfactorily implemented.
Finding 4. Inadequate Procedures t o Detect Errors i n Indirect Costs in a Timely Manner

UMHC d ~ dnot have adequate procedures in place to detect errors in the amount of indirect
costs it claimed to its NSF grants In a timely manner. Because LlMBC relied on its accounting
syste~rito a~~lomatically calculate and record the amount of indirect costs it charged to its NSF
awards UMGC overcharged its NSF grants in the amount of $131,510 for erroneously charged
indireci cost ra'tes, which is 1 4% of the total $9.3 million claimed on all three awards under
audit.

O M 6 Circular A-1 10, Uniform Administrative Requirements for Grants and Other Agreements
with Institution of Higher Education, Hospitals, and Other Non-Profit Organizations, Section 21,
Sub-section 6 , states that a "recipients' financial management system shall provide for
accurale, current and complete disclosure of the financial results of each federally-sponsored
project" . and shall maintain "effective control over and accountability of all funds property and
other assets . . . "

A l t l i o ~ ~ gthe
                  h University has procedures which requires its business managers and principle
invesigators to conduct monthly expenditure reviews and analyses to ensure that costs claimed
to NSF awards are allowable and allocable, these procedures do not include ensuring that
indlrecl costs charged to the NSF awards -are accurate. Instead, the business managers and
principle investigators relied on UIVBC's accounting system to calculate the amount of indirect
costs that should be charged to NSF awards.

UMBC's Peoplesoft accounting system is set up to automatically apply an indirect cost rate to a
direct cost item when that item is recorded in the accounting system. This system-calculated
indirect cost amount is then automatically charged'to UMBC's NSF award. However, UMBC's
accounting system does not automatically remove an indirect cost if the direct cost item to which
that ~ n d ~ r ecost
                c t was calculated from IS later removed as a charge from the NSF award.

For NSF award number EHR-0514220, UMBC overcharged $125,584 of indirect costs because
the system did not reverse the indirect costs associated with certain direct costs that were
erroneously charged, and later removed, from the NSF award by LIMBC's accounting personnel
through a correcting journal entry. However, the correcting entry did not include the removal of
the associated indirect costs. UMBC management has agreed that there was an overcharge of
$125,584 of indirect costs to NSF and stated that subsequent drawdowns were not processed
on the award until adjustments were made.

Sirr~ilarly,we found that indirect costs were overcharged by $5,926 for NSF award number IIS-
0121570 because certain subawardee expenses were incorrectly entered in UMBC's
accounting system as supplies. UMBC's Peoplesoft system automatically charged indirect
costs related to these miscoded subawardee expenses. However, NSF Award number IIS-
0121570 allows for indirect costs for supplies but does not allow indirect costs for subawardees.
UNlBC acknowledged this error and indicated that the error had been corrected through
adjustment to a subsequent drawdown.

Without an adequate review of indirect costs claimed, UMBC is at risk of claiming additional
unallowable indirect costs to IVSF in the future.
We recommend that NSF's D~rectorof DlAS ensure that UMBC develops and implements
adequate procedures to review ind~rectcosts charged to NSF awards for allowability and
allocabillty These procedures should also include a recalculation of indirect costs to ensure
that the amoirnt charged to each NSF award is accurate and allowable


Awardee's Comments

UMBC concurs with the finding and is in the process of developing and providing training to
departments for grant reconciliation which includes procedures to review and recalculate
indirec! costs charged to awards for accuracy, allowability and allocability. UMBC also indicates
that its system currently recalc~~lates  indirect costs when the associated direct costs are
removed.


Auditor's Response

UMBC's comments are responsive to the finding and recommendation.        This report finding
shocrld not be closed crntil NSF determines that the proposed corrective actions have been
satisfactorily implemented.


We considered these internal control deficiencies in forming our opinion of whether Schedules
A - I through A-3 are presented fairly in all material respects, in conformity with National Science
Foundation policles and procedures, and determined that this report does not. affect our report
dated August 4, 2006 on the financial schedules.

This report is intended solely for the information and use of UMBC's management, the National
Science .Foundation, UIMBC's Federal Cognizant Agency, the Office of Management and
Budget, and the Congress of the United States of America and is not intended to be and should
not be used by anyone other than those specified parties.




Maycr Hoffman McCann P.-C
11-vine.California
August 4, 2006
                             1

 FINANCIAL SCHEDLILES AND
SUPPLEMENTAL INFORlVlATlON
             -.
                Mayer Msffrnari McCann PC.
                An Independent CPA Firm
                Conrad GcsvernrnemR Services D1vjisic~n
                2301 Dupont Drive, Suite 200 

                Irvine, California 92612 

                949-474-2020 ph 





National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


             INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by University of Maryland, Baltimore County (UMBC) to the
National Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTRs) for the
NSF awards listed below. In addition, we audited the amount of cost sharing claimed on Award
No. HRD-0000295. The FCTRs, as presented in the Schedules of Award Costs (Schedules A-1
through A-3), are the responsibility of UMBC's management. Our responsibility is to express an
opinion on the Schedules of Award Costs (Schedules A - I through A-3) based on our audit.
       .--
             Award Number                        .
                                                 ..   Award Period         Audit Period

             EHR - 0514420                       01101105 - 12/31/08    01/01/05 - 03/31/06
             HRD - 0000295                       11/01100 - 10/31/06    11/01100 - 03/31106
              llS - 0121570                      09115/01 - 08/31/06    09115/01 - 03/31106


W e conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
A ~ ~ d i f i tSta~ldards,
                ~g       issued by the Comptroller General of the United States of America (2003
revision), and the National Science Foundation Audit Guide (September 1996). These
standards and the National Science Fo~lndationAudit Guide, require that we plan and perform
the audit to obtain reasonable assurance that the amounts claimed to NSF as presented in the
Schedules of Award Costs (Schedules A-I through A-3) are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
the Schedules of Award Costs (Schedules A - I through A-3). An audit also includes assessing
the accounting principles used and the significant estimates made by UMBC, as well as
evaluating the overall financial schedule presentation. We believe our audit provides a
reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule 6 ) explains the $174,655 (1.86%) of total claimed
IVSF funds that we have questioned as to their allowability under the award agreements. These
questioned costs ~ncludeunallowable salaries and wages, fringe benef~ts,participant support
costs, subaward costs and indirect costs.
Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations or specific award conditions, (2) costs that require
additional s ~ ~ p p oby
                      r t the awardee, or (3) costs that require interpretation of allowability by the
National Science Foundation - Division of Institution and Award Support (DIAS). NSF will make
the final determination of cost allowability. The ultimate outcome of this determination cannot
presently b e determined Accordingly, no adjustment has been rnade to costs claimed for any
potenlial disallowance by NSF.

In our opin~on,except for the $174,655 of questioned NSF-funded costs, the Schedules of
Award Costs (Schedules A - I through A-3) referred to above present fairly, in all material
respects, tl-le costs claimed on the FCTRs for the period November 1, 2000 to March 31. 2006
In corlforrnity with the National Science Foundation Audif Guide, NSF Grant Policy M a n ~ ~ a l ,
ternis and condit~onsof the NSF awards and on the basis of accounting described in the Notes
to the Financial Schedules, w h ~ c his a comprehensive basis of accounting other than generally
accepted accounting principles. These schedules 'are not intended to be a complete
presentation of financial posit~onin conformity with accounting principles generally accepted in
the United States of America.

In accordance with Goverl~rnentAi~ditincj Standards, and provisions of the National Science
F o L ~ / J c Auclif
              / ~ ~ ~Guide,
                      ~ / ~ Iwe have also issued a report dated August 4, 2006, on our tests of
UMBC's colnpliance with certain provisions of laws, regulations, and NSF award terms and
conditions and our consideration of UMBC's internal control over financial reporting. The
purpose of that report is to describe the scope of our testing over internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the
~riternalcontrol over financial reporting or on compliance. That report is an integral part of an
audit performed In accordance with Govenlme~ltAudithg Standards and should be read in
conjunction with this report in considering the results of our audit.

1"his report is intended solely for the information and use of UMBC's management, NSF, 

1JMBC's Federal cognizant agency, Offlce of Management and Budget, and the Congress of 

the Unlted States of America, and is not ~ntendedto be, and should not be used by anyone 

other than these specified parties 



Mayer Hoffman McCann P.C. 

Conrad Government Services Division 





Irvir-le. California 

A u g i ~ s t4 , 2006 

                                                                                              SCHEDULE A-1
                              UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

                             National Science Foundation Award Number EHR-0514420 

                                              Schedule of Award Costs 

                                          January 1, 2005 - March 31, 2006 

                                                       Interim 




                                  Approved         Claimed           Questioned          Schedule
        Cost Cateqory              B u l
                                   -               Costs (A)            Costs            Reference
Direct costs'
   Salaries and wages.                                                                  5, Note B-1
   Fringe berielits                                                                     B, Note 5-1
   Travel
   Parl~cipa~?lsupport
   Otlier direct costs:
      Material and supplies
      Consulting
      Sobconlrac!~
      Other direct costs

        Toial direct costs

lrid~rectcosls                                                                         B, Note 8-1 and B-3

        Total

Cosl sharing



  ( A ) - Tlie total cla~rnedcosts agrees with the total expenditures reported by UMBC on the Federal
  Cash T~.ansacliorlRepori - Federal Share of Nel Disbursements as of the quarter ended March
  31. 2006. Clainied costs reported above are taken from the awardee's books of accounts.
                                                                                                 SCHEDLILE A - 2
                             UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

                            National Science Foundation Award Number HRD-0000295 

                                            Schedule of Award Costs 

                                      November 1,2000 - IMarch 31, 2006 

                                                  Interim 




                                 Approved          Claimed            Questioned           Schedule
        Cost Cateqory             Birdqet          Cosls (A_)            Costs            Reference
Direct costs
  Salar~esand wages
  F~.inyehcnefits
  Travel
  Participant supporl                                                      30,970         B, Note 8 - 2
  Other direct cosls:
    Material and supplies
    Publication
    Consulting
    Su bawal-d                                                               1,634        B, Note 8-4
    Olher dlrecl costs

       Tolal direcl cosls



       Tota!

Cost shar~ng



  ( A ) - The tolal clairrled costs agrees with the tolal expenditures reported by UlWBC on the Federal
  Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended March
  31, 2006. Claimed costs reporled above are laken from the awardee's books of accounts.
                           UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

                          National Science Foundation Award Number 113-0121570 

                                         Schedule of Award Costs 

                                    September 15, 2001 - March 31, 2006 

                                                  Interim 




                                  Approved         Claimed          Questioned          Schedule
        Cost Cateclory             Rudqet         Costs (A]            Costs            Reference
Direct costs
  Salarles and wages          $     237,568
  Fringe benefits                    87.449
  Eyu!p!ne~,il                       12,000
  Travel                             13,050
  Participant support                26,400
  Other direcl costs:
     Material and sc~pplies           3,877
     Subaward                       533,018
     Other direcl costs               7.000




Indirect costs                      162,658          119,602              5,926        6,Note 8 - 3

        Total




  (A) - The total clairned costs agrees with the total expenditures reported by LlMBC on the Federal
  Cash Trar~sactionReport - Federal Share of Net Disbursements as of the quarter ended March
  31, 2006. Claimed costs reported above are taken from the awardee's books of accounts.
                                                                                                      SCHEDULE B


                      UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

                          National Science Foundation Award Numbers 

                          EHR - 051 4420, HRD-0000295, 115-0121 570 

                                 Schedule of Questioned Costs 

                           From Noveniber 1, 2000 to March 31, 2006 



Note 5-1 	     Salaries & Wages, Fringe Benefits
               UMBC did not effectivelv use its cost accounting controls to ensure that the costs
               it reported to IVSF on its' FCTRs were accurate i e c a u s e adjustments made to the
               University's labor cost distribution system were not timely and not reflected on
               the FCTR. W e found that labor costs charged to the STEM grant were
               overstated by $10,541 on the March 31, 2006 FCTR because certifications and
               adjustments to labor distribution for the Fall 2005 semester happened after the
               FCTR had been prepared and submitted. Adjustments were made after March
               31, 2006 to reduce the level of time efforts and labor costs of a faculty member
               charged to the STEM grant for- the period covered by the March 31, 2006 FCTR
               (See Finding and Recommendation No. 3 in the Independent Auditors' Reporf on
                Corrrplia~'rceand Other Matters and on Internal Control over Financial Reporling.)

               Cooperative Agreement EHR-0514420 (STEM)

                                                                        Labor Costs
                    	 Cost Category
                -.-........................... ----. .........   -.-. .
                                                                        Questioned
                                                                         ..-.........-.... .-.
   .
                Salaries and Wages 	                                                $ 8,861
                Fr~ngeBenefits 	                                                             1,680

                                  Total

               In add~tion.$5 798 of indirect costs has been questioned as a result of the
               questioned labor costs.

                                   $ 10,541    Questioned labor costs
                                    -
                                    A-

                                           55% Approved indirect cost rate

                                             5.798
                                   $- ,...........
                                   :             k.= 
 Questioned indirect costs


Note 5 - 2 	   Partrcipant Support Costs
               Costs cla~med on the FCTR for NSF award number HRD-0000295 were
               overstated by $30 970 because partlcipant support costs related to another NSF
               award were recorded and charged to the award This occurred because UWIBC
               d ~ dnot establ~sh,In a timely manner, the appropr~ateaccounts to record costs for
               the newly awarded NSF grant As a result UNlBC charged the partlcipant
               support costs of t h ~ snewly awarded NSF grant to NSF award number HRD-
               0000295
                                                                                 SCHEDULE 6


                    UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

                        National Science Foundation Award Numbers 

                        EHR - 0514420, IiRD-0000295, llS-0121570 

                               Schedule of Questioned Costs 

                         From November 1, 2000 to March 31, 2006 


                                         (Continued)


               W e reviewed the detail general ledger reports of NSF award number HRD-
               0000295 and identified $30,970 of tuition costs for four graduate research
               assistants, which were charged to the award on the March 31, 2006 FCTR but
               should have been claimed to the newly awarded grant. Adjustments were made
               after March 31. 2006 to remove these costs from the award. Therefore, we have
               questioned the costs claimed to NSF award number HRD-0000295 on the March
               31, 2006 FCTR because these unrelated costs still remained as charged on the
               award. (See Findirlg and Recommendation No. 3 In the Independent Auditors'
               Rep017 on Co1nplia17ceand Other Matters on Internal Control over Financial
               Reporting.)


Note 6 - 3 	   Indirect Costs
               UMBC did not have adequate procedyres to detect errors in indirect costs
               claimed to its NSF awards in a timely manner. During our review of indirect
               costs. we noted errors in computing costs claimed under the indirect cost
               category for NSF award numbers EHR-0514420 and llS-0121570. The follovving
               table summarizes thecosts we questioned for each grant.

               NSF Award Number HER-051 4420JYJEM         Grant)

               For NSF award number EHR-0514220, erroneous direct costs were charged to            '


               the award and the Peoplesoft system automatically applied indirect costs to the
               transaction and charged the indirect costs to the award. The error was identified
               by grant personnel and a correcting entry was prepared to remove the
               transaction. However, the correcting entry did not include the removal of the
               associated indirect costs. As such, the indirect costs associated with the
               erroneous direct costs remained charged to the award.

                         $ 	 340,693 Total lndirect Costs Claimed as of March 31, 2006
                            21 5,109 Recalculated Allowable lndirect Costs

                        $125.734.
lndirect Costs Questioned*
                               Total

                  * Amount includes $5,798 of questioned indirect costs at Note 6-1.
                                                                                  SCHEDULE     B

                  UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

                      National Science Foundation Award Numbers 

                      EHR - 0514420, HRD-0000295, llS-0121570 

                             Schedule of Questioned Costs 

                       From November 1, 2000 to March 31, 2006 


                                            (Continued) 



             NSF Award
             -           Number IIS-0121570 (ISS Grant)

             For NSF award number 11s-0121570, certain expenses of a subawardee were
             incorrectly coded and cla~medas supplies in the accounting system. As a result,
             the accounting system automatically applied and charged indirect costs related to
             these miscoded subawardee expenses.

                      $ 	 119,602        Total Indirect Costs Cla~medas of March 31. 2006
                            113,676      Recalculated Allowable lndirect Costs

                      $...
                      L..
                             5 926
                               I-   z-
                                         Total Indirect Costs Questioned


             (See Finding and Recolnmendation No. 4 in the Independent Auditors' Reporf on
             Compliai?ce and Other Matters on Internal Control over Financial Reporting.)


Note 8 - 4   Subaward Costs

             UMBC did not monitor subawardees to ensure that costs charged to the NSF
             awards were accurate, allocable, allowable and sufficiently supported. As a
             result, UMBC over-claimed $1,634 in subaward costs to NSF award number
             HRD-0000295 because one subawardee, University of Maryland, Eastern Shore
             (UMES), used an old indirect cost rate of 54% to determine its direct costs,
             instead of the latest effective indirect cost rate of 49%. UMES identified the error
             and made adjustment to correct it. However, the adjustment was not adequate
             to fully correct the error. As a result, indirect costs claimed were overstated by
             $1,634. Although these costs were indirect costs to UMES, they were claimed to
             NSF as subaward costs on the FCTR submitted by UMBC. As a result, they
             have been, questioned under the "Subaward" cost category. (See Finding and
             Recolnmendation No. 1 in the I'ndependent Auditors' Repolf on Conrpliance and
             Other Matters 017 Internal Conti'ol over Financial Reporfing.)
                                                                SCHEDULE 6


    UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

        National Science Foundation Award Numbers 

        EHR -- 0514420, HRD-0000295, llS-0121570 

               Schedule of Questioned Costs 

         From November 1 , 2000 to March 31, 2006 


                           (Continued)


NSF Award Number HRD-0000295 (LSAMP Grant)

Subawardee - University of Maryland, Eastern Shore

       $     61,884 Total Indirect Costs Claimed as of March 31, 2006
             60,250 Recalculated Allowable Indirect Costs

       $_-    I      Total Subaward Costs Quest~oned
                                                                                                                                                                               SCHEDULE C

                           UNIVERSITY OF MARYLAND BALTIMORE COUNTY 

                          Summary Schedules of Awards Audited and Audit Results 

                               From November 1, 2000 to March 31, 2006 



Surn1nal.y o f Awards Audited

   j ~wa;d Number                 ..       Award Period                                                          A u d i t Period 

   ; EHK - 0514420                      01101105        - 12131108 

                              .- .-.................... -.-.


   , IiRD 1-0000295
               .    .                       -.......... --....

                             	...........11101100

     llS
    .. -
         - 0121570
             - ---- -	         .-.---...5/01
                                        0911 ...
                                                        --   08/31106
                                                                   ........                                                                              ---


                               -- .        --   --       - --                            
...           -...-                .   -..             -. ..    .-      ----...............

             ward 
 umber 
          Type o f ward --
                                    ...........           Award Description ..........................

                                                                                                           -- ...
        EHR - 0514420 
            Cooperat~ve                                                  The award replaces award EHR-0227256 and
                                   Agreement                                                    aims to facilitate the implementation, testing,
                                                                                                refinement, and dissemination of promising
                                                                                                practices for improving STEM student
                                                                                                achievement as well as teacher
                                                                                                qualitylretention in selected high-needs
                                                                                                elementary, middle, and high schools in the
                                                                                                Baltimore County Public Schools (BCPS)
                                                                                                system.
                                  .................           -.....   - ..... 

        HRD - 0600295 	            Cooperative                                                  The grant is a comprehensive program
                                   Agreement                                                    designed to increase the quantity and quality of
                                                                                                minority students receiving baccalaureate
                                                                                                degrees in science, mathematics, engineering,
                                                                                                and technology (SMET).
                                                                                                ..-.-. . . . . . . . . . . . . . - . -...... -. -.................. -.......... -. ......... -...... .... 

                                                                                                                                                                                                          -,


                                                                                                The goal of this'project is to address the issues
                                                                                                 involved in developing effective computer
                                                                                                 systems for individuals experiencing
                                                                                                 situationally-induced impairments (SII), which
                                                                                                 exist when the physical, cognitive, or
                                                                                                 perceptual demands placed on the computer
                                                                                                 user exceed their abilities.



S u m m a r y of Q i ~ e s t i o n e dand Unsupported Costs by Award
   ,......           ..      ._.                -     - . .-........     .-                                       ...... -     -.-.-. ..-. .-... -. .-. ..- .- ..-...
 ---. .-. ... -.-. .- .
   I	
                              i
                              I                                            ,.            ..?,-
                                                                                             iG;
                                                                                               -i.d-                          1 Questioned 1 Unsupported                                                       1
                                                                                ...........                                  .... 	    " 
                        ............ 
Costs
                                                                                                                                                                  ...... 

                                                                                                                      ....            .. .....       ..... .-.. ...-.............    ................ 



                     ... 	                                             .... ....
                                                                                ....... 

                                                                                                                                                                                        .. 1
                                                                                                                                                                                             -
                                                                                                                                                                                                  : -

                                                                                                                                                                                        ...........
                                                                                                                                                                                                               1
                                                                                                                                                                                            SCHEDULE C

                                      UNIVERSITY OF MARYLAND BALTIMORE COUNTY 

                                     Summary Schedules of Awards Audited and Audit Results 

                                          From November 1, 2000 to March 31, 2006 


                                                                                          (Continued) 



Summary of Questioned Cost by Explanation
                                                                 ..................     -
                               ..........
                                                                                                                       --.            -,   .......    ........          .---....--. -.          ...................

                                                                        Questioned                                                                               .."'.I

                                                                                                                                                                   -.'

                     Category                                     . . . . . . .- Costs . . . . . . . . . .       
    Internal Controls ........... Non-Compliance 

        ~ a l a r l e sand wages-
        Fr~ngeBeneflts
        Eqi~~prnent
                                                                                 $ 8,861
                                                                                   1.680                     1               Yes
                                                                                                                             Yes
                                                                                                                             N/A             !
                                                                                                                                                         No 

                                                                                                                                                         NO 

                                                                                                                                                         N/A 

        Travel                                                                                                               N/A                         N/A 

        Pal tlc~pantSupport                                                           30,970                                                             No 

        Materlal & Supplles                                                                                                  N/A                         N/A 

        Publlcatron                                                                                                          N/A                         N/A 

        Consulting                                                                                                                                       N/A 

        Sctbcontractors                                                                 1,634                                Yes                         Yes 

        Other D~rectCosts                                                                                                    N/A
        Indirect Costs                                                                                                                                    N0
        Ccst Shar~ng      -       .. -
                                                                                      . . . . . . .                  

                                                                                                                             Yes
                                                                                                                             ....... 
                   Yes


Summary of Non-Compliance and lnternal Control Findings
                     .            .....              _     .............                _ ...... .I                             ...                               ..
               -..---. -- ............... - ............... 

                                                                                                      :            Non-Compliance or 1 -                                               Material or                           -. ' 1
  ;
                                          Findings -                                                                1nternal.control ......---.- .--
 -.--- Reportable ... --- -
            -
  , Subawardee %nltorlng
                 .-                                               -.                     -    -
                                                                                                      )
                                                                                                   ........... ---

                                                                                                                  Non-Compliance and                                                    Reportable

  I     Subawardee Cost Sllarlng
                                                     -.               -         - .
                                                                                                   I...---.... -. -..Internal
                                                                                                      I
          Nan-Compliance and
                                                                                                                                    Control
                                                                                                                     .-. -.... -. --.....-.
                                                                                                                                          .
                                                                                                                                                                              /
                                                                                                                                           -.-.....- ...............................
    --....-.-. - ..................... 
 -
.
                                                                                                                                                                                        Reportable                                                     I




  1
   ........................
      Cosl Accounting Controls in Place not
      Used and .........         Followed
                                                ......



                                                   Effectively
                                                                          ........
                                                                                                     I
                                                                                                  ....              -Internal Control
                                                                                                                     Internal Control
                                                                                                                                                                         i            ........... 

                                                                                                                                                                              JJJJJJJJJ 


                                                                                                                                                                                           Material
                                                                                                                                                                                                                                   1


  1

  !...................                - ........-.....                                                           --. .....-                                       - -- . . . .
                                                                                                                                                      ......- -- .--
                                                       -. .............................. .............                                     ........                                    .-   .. -.-..........
                                                                                                                                                                                                     
 
               ......................... 

  . . .Indirect
        . . . . . . . . . . . Costs
                              ............................................                                               Internal
                                                                                                                      .....                    Control                       ......                 Reportable
                                                                                                                                                                                                  ....._..._ ._. . . . . . . . . . . . . . . . . . .   1

                                                                                                                                                                                                                                                       I

                     UNIVERSITY OF MARYLAND, BALTIMORE COUNTY 

                                Notes to Financial Schedules 

                          From November 1: 2000 to March 31, 2006 


Note 1 :   S i ~ m m a r yo f Significant Accounting Policies

           Accountinq Basis
           The accompanying financial schedules have been prepared in conformity with
           National Science Foundation (NSF) instructions, which are based on a
           comprehensive basis of accounting other than generally accepted accounting
           principles. Schedules A - I through A-3 have been prepared from the reports
           submitted to NSF. The basis of accounting utilized in preparation of these reports
           differs from generally accepted accounting principles. The following information
           summarizes these differences:

             A . Equity
                Under the terms of the award, all funds not expended according to the award
                agreement and budget at the end of the award period are to be returned to NSF.
                Therefore, the awardee does not maintain any equity in the award and any
                excess cash received from NSF over final expenditures is due back to NSF.

             B Equipment
                 Equipment is charged to expense in the period during which it is purchased
                 instead of being recognized as an asset and depreciated over its useful life. As
                 a result, the expenses reflected in the Schedules of Award Costs include the
                 cost of equipment purchased during the period rather than a provision for
                 depreciation.
                 Except for awards with nonstandard terms and conditions, title to equipment
                 under IVSF awards vests in the recipient, for use in the project or program for
                 which it was acquired, as long as it is needed. The recipient may not encumber
                 the property without approval of the federal awarding agency, but may use the
                 equipment for its other federally sponsored activities, when it is no longer
                 needed for the original project.

             C . Inventory
                 Minor materials and supplies are charged to expense during the period of
                 purchase. As a result, no inventory is recognized for these items in the financial
                 schedules.

           !nconie Taxes

           UMBC is a state government entity of the state of Maryland and is exempt from
           income taxes.

The departure from generally accepted accoilnting principles allows NSF to properly monitor
and track actual expenditures incurred by the Grantee. The departure does not constitute a
material weakness in internal controls.
APPENDIX -
             REPORT
                                                    A N   H O N O R S   U N I V E R S I T Y    I N   M A R Y L A N D



                                                                                  Management Advlsory Services
                                                                                  University of Maryland, Baltlmore County
                                                                                  1000 Hllltop Circle
                                                                                  Baltimore, Maryland 21250

                                                                                  PIIONE:4 10.455.1364
                                                                                         410-455-6257
Shareholder                                                                       FA%: 410.455.1009

hlayer I-loffinan McCa~lnP.C.                                                     volce/nv: 410-455.3233
                                                                                  www.urnbc edu
Coilsad Govannient Services Division
2301 Dupont Drive, Suite 200
Irvine. Cnlifolnia 9261 2




                                                                                     -
Deal. MI..
         Rolwes:

Thank you for the opportunity to ~cspondto lhc draft audit report covering National
Science Foundation (NSF) award Nos. EHR-05 14420, HRD-0000295, and 11s-012 1570.
l' have attached our comnients on the factual accuracy of the report, as well as our
response to the findings and recornmcndations, including corrective actions taken or
planned.

I f you have any questions or need additional i~iformation,please contact me at


Sincerely,
                        IJMBC Response to Draft Audit Report 

                                NSF Award Nos. 

                    EHR-0514420, HRD-0000295 and 118-0121570 

                             Dated August 23, 2007 


UMBC Response to Findings and Recommendations

Recomnlendntion #l:

We ~.ecornn~eud   that NSF's Dircctor of the Division of Institution and Award Support
(DIAS) ensure illat UMBC develop a con~prehensivesubawardee fiscal n1onitoring plan
wllich includes clearly defined monitoring responsibilities. In addition, UMBC should
appl-oprialely staff its OSP and OCGA departments and adhere to its subaward
monl toring policies and procedures.

LlMBC: Response #I:

We concur and are in the process of developing a comprehensive subawardee fiscal
monitoring plan which i~icludesclearly defined monitoring responsibilities. Specifically,
the Office ol'Sponsoi.ed Programs (OSP) has implemented new procedures for processing
subaward invoices and verifying subaward cost sharing commitments. OSP has also
changed the language of their subawards to better address coinplia~cerequirements,
developed a new subrecipient commitment form and developed a database to assist in the
repoi-ting and monitoring of subawards. Subawardee invoices are now directed lo OSP
for review against the subaward agrec~nentterms, including the approved budget and
indirect cost rate, prior to approval by the Principal Iilvestigator for payment.
Additionally, subaward agreeillent language has been improved to require adequate
information to be included in the subaward invoices. Fiscal monitoring or desk audits of
subawardees will be handled using a risk based approach and will be designed so as not
to duplicate the efforts of the subawardee's A-133 audit.

OSP has increased its staff s ~ z efrom three to nine positions. The staff has been
organized into teams lo better serve the needs of the individual colleges and centers
\vitllin UMBC and provicle a solid knowlcdge base of several major funding agencies and
their relevant policies and proced~xes.Additionally, one positioil is primarily dedicated
to subrecipient monitoring. The Office of Contract and Grant Accounting (OCGA) has
also reorganized its staff to provide more focused attention 011 the individual needs of our
colleges and centers, as well as a compliance review function.




Wc rccommcnd that NSF's Director of DIAS cnsure that UMRC develops and
implements a written policy and procedures to obtain and review cost sharing data and
related supporting documentation from its subawardee on a regular basis. These reviews
should be of sufficient scope and quality to allow UMBC to provide reasonable assurance
that all costs claii~ledby subawardees are accurate, allowable, and sufficiently supported
per NSF regulations and OMB Circulars.
                      UMBC Response to Draft Audit Report 

                                NSF Award Nos. 

                    EHR-0514420, HRD-0000295 and 11s-0121.570 

                             Dated August 23,2007 


UMUU Response #2:

We concur and are in the process of developing and implementing written policies and
procedures to obtain and review cost sharing data and related supporting documentation
horn subawasdees on a regular basis. OSP has improved their subaward cost share
verification procedures, including requiring all subawardee cost sharing to be
documented an incoming invoiccs with a breakdown by expense categoly and
acknowledgement of the subawardee funding source. As previously stated, OSP staff has
been illcreased and now includes a position primarily dedicated to subrecipient
monitoring. The subaward manager llas developed a database of subawards wit11
reporting mecl~anismsto assist in the organization and monitoring of snbawards,
including cost sharing requirements and other compliance regulations. Additionally, an
annual cost share certification is required from an authorized organization official at the
subaward institution. As part of our co~nprehensivesubawardee fiscal monitoring plan,
fiscal monitoring or desk audits of subawardees will be handled using a risk based
approacll and will be designed so as not to duplicate the efforts of the subawardee's A-
1 33 audit.




We recommend that NSF's Director of DIAS ensure that UMBC develop and implement
writter~policies and procedures to perform periodic reviews of individual departments
and divisions for co~npliailcewith and proper implementation of established cost controIs
in a timely manner. Necessary assistance and training should be provided to individual
departments or divisioils wl~ichhave difficulties in following the established control
proccsscs.

F-JMBCResponse #3:

We concur and are in the process of reorganizing both OSP and OCGA to better serve the
needs of o w individual.colleges and 'centers. Both departments are implementing and
documenting procedures focused on compliance reviews and campus outreach. Training
programs are also being developed for the campus com~nunityto provide departments
with the necessary tools to properly manage their awasds.


Rccommcndation #4:

We recon~mendthat NSF's Director of DIAS ensure that UMBC develop and im.plen~ent
aclequnk procedures to review indirect costs charged to NSF awards for allowability and
                                                                                  to
allocability. These procedures shouId also include a recalculation of indire~t~costs
ensure that the amount charged to each NSF award is accurate and allowable.
        HOW TO CONTACT 

THE OFFICE OF INSPECTOR GENERAL 


             Internet 

          www.oiq.nsf.kov 


            Email Hotline 

            ois@nsf.qov 


            Telephone 

           703-292-7 100 





                -
                M ail 

      Office of Inspector General 

     National Science Foundation 

    4201 Wilson Blvd., Suite 1135 

          Arlington, VA 22230 

